U.S. Department of Justice
Office of the Inspector General



             A Review of the FBI’s
       Investigative Activities Concerning
         Potential Protesters at the 2004
          Democratic and Republican
         National Political Conventions




                                  Office of the Inspector General
                                  Oversight and Review Division
                                                   April 27, 2006
I.     INTRODUCTION

       In August 2004, newspaper articles reported that the Federal Bureau of
Investigation (FBI) had questioned political demonstrators across the United
States in advance of threatened violent and disruptive protests at the July
2004 Democratic National Convention and the August 2004 Republican
National Convention. 1 The initial articles stated that “dozens of people” had
been interviewed in at least six states, including past protesters and their
friends and family members, and that anarchist groups reported being
“harassed” by federal agents. The articles also stated that grand jury
subpoenas had been issued to several individuals calling for them to appear
before the grand jury during the Democratic convention, thereby preventing
them from attending the convention. 2 In these articles, civil liberties groups
alleged that the FBI was attempting to chill protesters from exercising their
First Amendment rights. 3 In response, the Department of Justice (Department
or DOJ) suggested that the interviews were largely limited to efforts to disrupt a
threatened bombing at the Democratic convention, and law enforcement
officials placed the number of interviews at no more than 24. 4

      After publication of the initial news articles, three members of Congress
asked the Office of the Inspector General (OIG) to initiate an investigation into
“possible violations of First Amendment free speech and assembly rights by the
Justice Department in connection with their investigations of possible protests
at the Democratic and Republican political conventions in Boston and New
York and other venues.” 5 At the time of the request, the OIG was conducting a
review of the FBI’s compliance with the Attorney General’s Investigative
Guidelines which govern domestic terrorism, criminal intelligence, and general
crimes investigations. We determined that there were authorities available to


       1 See Eric Lichtblau, F.B.I Goes Knocking for Political Troublemakers, The New York
Times, Aug. 16, 2004; Tom Hays, FBI Tracks Potential GOP Protesters, Associated Press, Aug.
16, 2004.
        2 Eric Lichtblau, F.B.I Goes Knocking for Political Trouble makers, The New York Times,

Aug. 16, 2004; Eric Lichtblau, Inquiry Into FBI Questioning is Sought, The New York Times,
Aug. 18, 2004; Tom Hays, FBI Tracks Potential GOP Protesters, Associated Press, Aug. 16,
2004. A FOIA request led to the release of some FBI documents relating to the pre-convention
interviews. See, e.g., Dan Eggen, Protesters Subject to ‘Pretext Interviews,’ Washington Post,
May 18, 2005; Eric Lichtblau, Large Volume of F.B.I. Files Alarms U.S. Activist Groups, The New
York Times, July 18, 2005.
       3 Tom Hays, FBI Tracks Potential GOP Protesters, Associated Press, Aug. 16, 2004; Eric

Lichtblau, Inquiry Into FBI Questioning is Sought, The New York Times, Aug. 18, 2004.
       4 Eric Lichtblau, Protesters at Heart of Debate on Security vs. Civil Rights, The New York
Times, Aug. 28, 2004.
       5 Letter to Inspector General Glenn A. Fine from Congressmen John Conyers, Jr.,
Robert C. Scott, and Jerrold Nadler, Aug. 17, 2004.
the FBI to prepare for the 2004 political conventions in addition to the
Investigative Guidelines, and we therefore decided to examine the allegations
regarding the FBI’s convention interviews in a separate review. 6 This report
describes the results of our review of the FBI’s interviews and investigative
activity related to potential protesters in connection with the 2004 Democratic
and Republican national political conventions.

       A.     Scope and Methodology

      This review was conducted by attorneys in the OIG’s Oversight and
Review Division. The OIG team conducted over two dozen interviews of FBI
Headquarters and field personnel, including personnel from the
Counterterrorism/Counterintelligence Division and the Office of the General
Counsel. The OIG team also examined approximately 10,000 pages of
documents produced by the FBI in response to our document requests. Among
the information analyzed were FBI investigative case files, information retrieved
from FBI databases, correspondence, guidance memoranda, and manuals.

       Our review concentrated on the FBI’s investigative activities involving
persons with an alleged nexus to planned protest activity at the 2004
Democratic and Republican national political conventions. In light of the
request from members of Congress, our review also paid particular attention to
the FBI’s justification for interviews that were widely reported in the press prior
to the Republican convention. The FBI identified other threats to the
conventions that were addressed pursuant to the FBI’s international
counterterrorism program, such as threats to the physical security of the
convention venues. However, because we identified no convention protester-
related interviews arising from the exercise of the FBI’s counterterrorism
authorities, our review did not include an examination of interviews relating to
these different threats.

      The FBI does not maintain a centralized database of interviews
conducted in relation to a particular special event. Rather, interviews are
recorded in various investigative or “Special Event” administrative files that are
opened pursuant to the Attorney General Guidelines or other authorities
governing that particular activity. 7 Over the period of this review, the OIG
asked the FBI to provide information concerning interviews conducted in
connection with the two conventions, whether recorded on the FBI’s routine


       6  The OIG released its report on the Investigative Guidelines in September 2005. The
report, entitled The Federal Bureau of Investigation’s Compliance with the Attorney General’s
Investigative Guidelines, is available at http://www.usdoj.gov/oig/special/0509/index.htm.
       7   We discuss the FBI’s role in connection with specially designated Special Events in
Part II of this report.



                                               2
                                               2
interview form (FD-302) or elsewhere. At the end of our information-gathering
process, the FBI’s Weapons of Mass Destruction/Domestic Terrorism
Operations Section (DTOS) in the Counterterrorism Division confirmed that we
had identified all the interviews the FBI conducted to address protester-related
domestic terrorism threats to the 2004 political conventions.

      Our review did not examine the role of non-federal law enforcement
agencies acting independently of the FBI which, according to press accounts,
also engaged in investigative activities such as interviews and surveillance at
protest events, including the two 2004 political conventions. 8

       B.     Findings

      Our review did not substantiate the allegations that the FBI improperly
targeted protesters for interviews in an effort to chill the exercise of their First
Amendment rights at the 2004 Democratic and Republican national political
conventions. We concluded that the FBI’s interviews of potential convention
protesters and others that we reviewed were conducted for legitimate law
enforcement purposes. We also determined that the Department’s assertion
that the FBI’s pre-convention interviews were largely limited to efforts at
disrupting a single threat to bomb media vans at the Democratic Convention
was not correct. Instead, we found that the FBI’s interviews of potential
convention protesters were based upon a variety of threat information reflecting
possible bomb threats and other violent criminal activities.

      Nearly all of the FBI’s protester-related investigative activity was devoted
to addressing 17 distinct threats to the conventions falling within the FBI’s
domestic terrorism program. We concluded that the FBI addressed each threat
in accordance with the Attorney General’s Guidelines on General Crimes,
Racketeering Enterprise and Terrorism Enterprise Investigations (General
Crimes Guidelines). In addition, our review identified seven terrorism
enterprise investigations (TEIs) not initiated in connection with the conventions
that generated convention-related criminal intelligence. We concluded that the
investigative techniques utilized to obtain this intelligence were a logical
outgrowth of the underlying investigations and that the investigative activity
was undertaken in a manner consistent with the requirements of the General
Crimes Guidelines.

      With respect to the protester-related interviews, our investigation
revealed that the FBI identified 74 persons and the residents of 3 addresses for


        8 See, e.g., Larry Neumeister, Rights Group Challenges NYPD Videotaping of

Demonstrators, Associated Press, Nov. 30, 2005; Jim Dwyer, NYPD Conducted Covert
Surveillance at Protest Rallies, The New York Times, Dec. 22, 2005.



                                             3
                                             3
contact who satisfied the following criteria: 1) they were likely convention
demonstrators or, through affiliation with one or more organizations or
persons, were individuals with access to information about potential protest
activity at the conventions; and 2) they were persons whom the FBI reasonably
believed had, or might have, knowledge about planned criminal acts at the
conventions. In addition, the FBI contacted and interviewed eight individuals
in an attempt to locate persons who satisfied the two criteria above. Of the
individuals targeted for contact, the FBI was successful in locating 60 persons
in 9 states, 41 of whom consented to interviews and provided the FBI with
information. All of these contacts occurred in response to the 17 threats of
criminal activity described above.

     We describe our findings in greater detail in Section IV of this report.
Prior to that, we provide background information on the FBI’s Special Events
mission, including an overview of the DOJ guidelines that govern investigative
and counterterrorism activities relating to such events, followed by a
description of the FBI’s preparations for the Democratic and Republican
national conventions. Our analysis of the FBI’s investigative activities prior to
and during the two conventions is described in Section V of this report.


II.    BACKGROUND ON THE FBI’S SPECIAL EVENTS MISSION

       The FBI has responsibilities with regard to security at “special events”
that, due to their importance or high public profile, pose attractive targets for
terrorist attack. 9 Presidential Decision Directive (PDD) 39 establishes the U.S.
Policy on Counterterrorism, which assigns to the Department of Justice, as
delegated to the FBI, lead agency responsibilities for countering threats or acts
of terrorism within the United States. 10 As described in more detail below, the
FBI has established a Special Events subprogram largely as a result of PDD 39




        9 The FBI defines a “Special Event” as “a significant domestic or international event,

occurrence, circumstance, contest, activity, or meeting which, by virtue of its profile and/or
status, represents an attractive target for terrorist attack.” Manual of Investigative Operations
and Guidance (MIOG) 300-1(2).
        10 PDD 39 was issued by President Clinton on June 21, 1995, and is classified. See

also 28 C.F.R. § 0.85(l) (“The Director of the Federal Bureau of Investigation shall . . . [e]xercise
Lead Agency responsibility in investigating all crimes for which it has primary or concurrent
jurisdiction and which involve terrorist activities or acts in preparation of terrorist activities
within the statutory jurisdiction of the United States. Within the United States, this would
include the collection, coordination, analysis, management and dissemination of intelligence
and criminal information as appropriate.”).



                                                  4
                                                  4
and the Antiterrorism and Effective Death Penalty Act of 1996, 18 U.S.C.
§ 2332b (f) & (g). 11 The FBI’s responsibilities for Special Events that are
designated as National Special Security Events (NSSEs) warranting stringent
federal security measures are set forth in another classified PDD. 12 Both the
Democratic and Republican national political conventions in 2004 were
designated NSSEs.

      In addition, the FBI has criminal jurisdiction involving Special Events
based upon numerous federal criminal statutes that address crimes such as
those involving riots and civil disorders, 13 solicitation to commit a crime of
violence, 14 and interstate and foreign travel or transportation in aid of
racketeering. 15

       Below we provide a brief overview of the FBI’s classification of, and level
of involvement with, Special Events, several of the FBI units with Special
Events responsibilities, and authorities governing the FBI’s activities at Special
Events.

       A.       Types of Special Events Warranting FBI Participation

       The FBI employs a Special Events Readiness Level (SERL) rating system
to determine the amount of administrative and operational support it should
dedicate to Special Events. Each event is classified on a four-part scale based
upon several factors, including whether high-level U.S. and foreign government
officials will participate, whether previous terrorist incidents are associated
with the event or similar events, the degree of media attention, and the current
level of domestic and global terrorist activity.

      The FBI’s SERL system ratings range from I to IV. The highest SERL
designation – SERL I – is reserved for Special Events that require the full


       11  This Act, 18 U.S.C. § 2332b(f), provides that “the Attorney General shall have
primary investigative responsibility for all Federal crimes of terrorism. . . .” More recently,
Homeland Security Presidential Directive 5, issued by President Bush in February 2003,
describes the FBI’s responsibility to coordinate counterterrorism activities: “Generally acting
through the Federal Bureau of Investigation, the Attorney General, in cooperation with other
Federal departments and agencies engaged in activities to protect our national security, shall
also coordinate the activities of the other members of the law enforcement community to
detect, prevent, preempt, and disrupt terrorist attacks against the United States.”
       12  PDD 62, issued by President Clinton in May 1998, addresses the coordination of the
federal government’s counterterrorism resources at events of national interest.
       13   18 U.S.C. § 2101 and 18 U.S.C. § 231.
       14   18 U.S.C. § 373.
       15   18 U.S.C. § 1952.



                                                5
                                                5
support of the U.S. government, and likely require the prepositioning of
counterterrorism resources. The Attorney General or his or her designee must
certify SERL I designations after receiving the recommendation of the FBI
Director. In 2004, the G-8 Summit in Sea Island, Georgia was designated a
SERL I event. SERL II events require the limited pre-deployment of U.S.
government assets related to counterterrorism preparedness. In 2004, the
State Funeral of President Ronald Reagan and the Democratic and Republican
national political conventions were designated as SERL II events. Each of these
2004 events also were designated as NSSEs. 16 NSSEs, as with SERL I or II
events, require extensive security preparations by the U.S. government.
PDD 62, which is classified, addresses these security preparations.

       In addition to its SERL rating system, the FBI has created a special case
management classification code for counterterrorism activities at Special
Events – the 300A classification. The FBI’s MIOG provides that this
classification is administrative and that no active criminal investigation should
be conducted under it. In the event a criminal act occurs at a Special Event,
the MIOG provides that a separate investigative file should be opened under
the substantive violation. MIOG 300-1(5)(b). Intelligence and investigative
information resulting from leads that do not result in the opening of
preliminary inquiries or full investigations may be retained under the 300
classification in accordance with applicable guidelines and regulations.

       B.     FBI Components with Special Events Responsibilities

       Many Headquarters units in several FBI Divisions are involved in the
planning and provision of security support to Special Events, including
investigative, intelligence, technical, tactical, and logistical assistance. The G-8
Summit in Sea Island, Georgia, for example, required the assistance of more
than 900 FBI personnel from approximately 20 different FBI components. 17
Both the Democratic and Republican national political conventions required
comparable support in 2004. Although our review focused largely on field-level
investigative activity carried out by agents assigned domestic terrorism duties
at the two political conventions, we reviewed the work of several FBI
Headquarters and field components with missions relevant to the FBI’s
interviews of protesters and related investigative activities.




       16 The decision to identify an event as an NSSE is made by the Secretary of Homeland
Security after consultation with the Homeland Security Council. The first NSSE after the
September 11 terrorist attacks was the 2002 Salt Lake City Winter Olympics.
       17Examples of the FBI components involved include the Crisis Management Unit, the
Hostage Rescue Team, the Hazardous Materials Response Unit, and the Bomb Data Center.



                                             6
                                             6
       At the field level, the FBI’s New York and Boston Divisions assigned
responsibilities to one or more Joint Terrorism Task Force Squads (JTTFs)
comprised of squads of FBI agents and others, such as non-FBI federal, as well
as state and local law enforcement personnel, designated as “Task Force
Officers,” to investigate domestic terrorism matters related to the conventions.
These domestic terrorism squads received assistance from the field-based FBI
Chief Division Counsel on legal matters, as well as from their respective Field
Intelligence Groups (FIGs), which provided intelligence support. 18 The squads
also worked in close cooperation with their state, local, and federal law
enforcement partners. 19

      At the Headquarters level, the FBI’s convention support was overseen
primarily by the Domestic Terrorism Operations Section (DTOS) in the
Counterterrorism Division, the Directorate of Intelligence (DI), and the Office of
the General Counsel (FBI-OGC). Within DTOS, the FBI has a specialized unit
devoted exclusively to the management of Special Events – the Special Events
Management Unit (SEMU). This Unit oversees planning and various
administrative tasks related to Special Events, such as identifying the
appropriate SERL rating, coordinating threat assessments, and “provid[ing]
appropriate Special Event support to the host field division.” MIOG 300-1(3).
In preparation for the conventions, SEMU organized Headquarters briefings for
agents and managers assigned convention-related duties.

      With respect to investigations, the Domestic Terrorism Operations Unit
(DTOU) provides programmatic and operational oversight in cases that involve
threats of domestic terrorism. In the planning for the 2004 conventions, DTOU
was heavily involved in forwarding convention-related threat information
obtained from ongoing FBI investigations to the domestic terrorism squads.

       Intelligence support for Special Events is also provided by the DI, in
conjunction with field division FIGs. The Directorate of Intelligence has
identified intelligence requirements for Special Events, but it is not involved in
planning investigative activities undertaken to fulfill these requirements.

       FBI-OGC provides support to the Chief Division Counsel in the FBI’s 56
field divisions and responds to requests for legal advice and guidance from FBI
personnel. In preparation for the conventions, FBI-OGC assisted with training
and providing legal support to the Boston and New York Divisions.


       18 In each FBI field division, a FIG is responsible for the management, execution, and
coordination of intelligence functions, including the dissemination of intelligence.
        19 JTTFs, composed of federal, state, and local law enforcement officers, respond to

terrorism leads and conduct terrorism investigations. In addition, JTTFs pool the resources
and expertise of multiple agencies to collect and share counterterrorism intelligence.



                                               7
                                               7
       C.     Authorities Governing Criminal Investigative and
              Counterterrorism Activity Related to the FBI’s Special Events
              Mission

       Under applicable authorities, including PDDs 39 and 62 and the
Attorney General’s Investigative Guidelines, and the Attorney General’s
Guidelines on FBI National Security Investigations and Foreign Intelligence
Collection (NSI Guidelines), the FBI is permitted to collect, retain, and
disseminate investigative information and criminal and foreign intelligence
relevant to its law enforcement mission at Special Events, which includes the
detection and prevention of terrorist acts. The Attorney General’s Guidelines
on General Crimes, which govern investigations of acts of domestic terrorism
and crimes such as riots and civil disorders, state that the FBI must be
proactive in executing its counterterrorism responsibilities. See General
Crimes Guidelines, Part VI. 20 The Guidelines also state that investigations
initiated to prevent criminal conduct should “not be based solely on activities
protected by the First Amendment or on the lawful exercise of any other rights
secured by the Constitution or laws of the United States.” General Crimes
Guidelines, Part I.

        FBI field supervisors told the OIG that the FBI’s investigative activity
related to convention protesters was conducted under the authority of the
General Crimes Guidelines and that the FBI did not rely upon its Special
Events authorities (such as the PDDs) to fulfill its investigative responsibilities
related to the conventions. The General Crimes Guidelines authorize three
levels of investigative activity: the “prompt and extremely limited checking out
of initial leads,” preliminary inquiries, and full investigations. General Crimes
Guidelines, Introduction. In addition, the General Crimes Guidelines authorize
certain counterterrorism activities that can be conducted in the absence of
other authorized investigative activity. General Crimes Guidelines, Part VI.

      The first level of investigative activity permitted under the General
Crimes Guidelines, the checking of initial leads, may be undertaken after
receipt of information indicating that some follow up regarding the possibility of
criminal activity is warranted. Leads may be generated from new information
coming to the FBI as well as from the analysis of intelligence already in the
FBI’s possession. Unlike the Guidelines provisions governing preliminary
inquiries, the provisions governing leads checking do not expressly prohibit the
use of particular investigative techniques, cautioning only that the activity


      20 For background on the Attorney General’s General Crimes Guidelines, see the OIG

report entitled, The Federal Bureau of Investigation’s Compliance With the Attorney General’s
Investigative Guidelines, Sept. 2005, referenced in note 6, supra.



                                               8
                                               8
must be “prompt and extremely limited.” See General Crimes Guidelines,
Introduction, A. Other provisions in the Guidelines authorize use of certain
investigative techniques without authorization from a supervisory agent. These
techniques include the examination of FBI indices and files, the review of
public records, and interviews of the complainant and potential subject.
General Crimes Guidelines, § II.B.6. According to the Guidelines, an important
objective of pursuing such leads is to determine whether further investigation
(either a preliminary inquiry or a full investigation) should be conducted.

      The next level of investigative activity authorized under the General
Crimes Guidelines is a preliminary inquiry. A preliminary inquiry is authorized
when information or an allegation indicates the possibility of criminal activity,
and responsible handling requires further scrutiny beyond checking initial
leads. See General Crimes Guidelines, Introduction, A. A preliminary inquiry
allows the FBI to determine whether a full investigation should be opened. The
range of investigative techniques in a preliminary inquiry is broad, and the
Guidelines state that the FBI should not hesitate to use any lawful techniques
in a preliminary inquiry, even if “intrusive,” where “the intrusiveness is
warranted in light of the seriousness of the possible crime or the strength of
the information indicating its existence or future commission.” General Crimes
Guidelines, § II.B.4.

      The third level of investigative activity is the full investigation. The
Guidelines define full investigations either as general crimes investigations or
criminal intelligence investigations. General crimes investigations may be
opened where facts or circumstances reasonably indicate that a federal crime
has been, is being, or will be committed. General Crimes Guidelines,
Introduction, B. The standard for initiating a general crimes investigation is
“substantially lower than probable cause,” and may be satisfied when the
objective of the investigation is to prevent future criminal activity, in addition to
investigating a completed criminal act. General Crimes Guidelines, § II.C.1.

       The second type of full investigation is a criminal intelligence
investigation. There are two types of criminal intelligence investigations:
racketeering enterprise investigations (REIs) and terrorism enterprise
investigations (TEIs). A racketeering enterprise, which is not pertinent to this
review, involves racketeering activity as defined in the Racketeer Influenced
and Corrupt Organizations Act (RICO), 18 U.S.C. §§ 1961-1968. A terrorism
enterprise investigation may be initiated when facts or circumstances
reasonably indicate that two or more persons are engaged in an enterprise for
the purpose of: 1) furthering political or social goals wholly or in part through
activities that involve force or violence and a federal crime; 2) engaging in
terrorism as defined in 18 U.S.C. § 2331(1) or (5) that involves a federal crime;
or 3) committing any offense described in 18 § U.S.C. 2332b(g)(5)(B). General
Crimes Guidelines, § III.B.1.a.



                                         9
                                         9
       Part VI of the General Crimes Guidelines authorizes law enforcement
activities that can be carried out in the absence of checking leads, or initiating
a preliminary inquiry or full investigation. These authorizations involve tools
that are available to obtain information about both terrorism and non-
terrorism-related crimes. Subpart A of Part VI authorizes the FBI to engage in
two types of “counterterrorism activities”: 1) utilizing information systems,
which the FBI may operate or participate in, to identify and locate terrorists
and alien supporters of terrorist activity; and 2) visiting public places and
events on the same terms and conditions as members of the public “for the
purpose of detecting or preventing terrorist activities.” In Subpart B, the FBI is
authorized to conduct topical research, use online resources “for the purpose of
detecting or preventing terrorism or other criminal activities,” and prepare
reports and assessments. Prior to issuance of the revised General Crimes
Guidelines in May 2002, the FBI’s authority to engage in these activities
generally was interpreted to be limited to the investigation of crimes or the
collection of criminal intelligence only when agents had a sufficient evidentiary
basis to check leads, conduct a preliminary inquiry, or conduct a full
investigation.


III.   THE FBI’S PREPERATIONS FOR THE 2004 DEMOCRATIC AND
       REPUBLICAN NATIONAL POLITICAL CONVENTIONS

       The FBI’s preparations for the 2004 political conventions were extensive
and began nearly two years in advance of the first convention (the Democratic
National Convention in July 2004). Based on its past experience, the FBI
anticipated that both conventions would likely attract threats from persons
seeking to carry out criminal acts in order to disrupt the proceedings and bring
attention to extremist political causes. Many of the agents that we interviewed
stated that violence and the destruction of property at the conventions were a
significant concern, and that the experience gained from recent violent
protests, such as those described in the next paragraph, heightened the need
for vigilance in identifying and evaluating threat information.

       In addition to the threats posed by international terrorists, the FBI was
especially concerned about the threats posed by anarchist groups, some of
whose members had committed violent acts at demonstrations prior to the
2004 political conventions. These included the 1999 World Trade Organization
ministerial meeting in Seattle, Washington, which resulted in violence leading
to several hundred arrests and property destruction exceeding $3 million; the
November 2003 annual Free Trade Area of the Americas meeting in Miami,
Florida; and the 2000 national political conventions. Through observation and
analysis of these and similar events, the FBI identified tactics employed by
violent demonstrators that it believed might be utilized at the 2004 national
political conventions. These included the use of bombs, incendiary devices,
spray canisters filled with caustic liquids, weapons such as bats and sling-

                                       10
                                       10
shots, “anti-horse” tactics (e.g., rolling marbles in front of mounted police
officers), and telephonic bomb and fire threats.

      To improve its intelligence capabilities regarding threats to the
conventions, the FBI undertook various preparations, including convening
organizational meetings, conducting training, creating planning documents and
materials, evaluating threats, and canvassing its agents and databases for
available information. As we discuss below, however, the FBI also issued
guidance documents concerning the need to ensure that it’s investigative and
data collection activities did not unlawfully impinge upon civil liberties.

       Beginning in late 2003, the FBI’s Domestic Terrorism Operations Section
organized meetings to prepare for Special Events upcoming in 2004, which
included the G-8 Summit in Sea Island, Georgia, and the Democratic and
Republican national political conventions. A domestic terrorism squad
supervisor told the OIG that an important objective of one of the early meetings
was to ensure consistency in the FBI’s approach to the 2004 Special Events.
He said that a consensus was reached that the FBI should examine available
information on persons with a history of committing violent acts at any
demonstration. The agent stated that once this information was identified,
field supervisors would decide whether additional investigative activity, such as
interviews, was warranted. The agent stated that the FBI’s operational
approach with respect to investigative activity related to the conventions was
decentralized, and that field supervisors were responsible for determining what
preparations were necessary to ensure that intelligence was collected and
investigative activity completed to prevent or minimize the potential for acts of
violence during those events.

       Early in these preparations, some FBI field offices recognized a need for
clear guidance and training on legal restrictions concerning the collection,
maintenance, and dissemination of law enforcement information related to
Special Events. Both the Boston and New York field offices furnished
instruction to their personnel regarding the lawful monitoring of First
Amendment-related activity in anticipation of the two conventions. In the
Boston field office, for example, the domestic terrorism squad assigned to the
Democratic convention requested legal instruction on convention intelligence
issues over a year in advance of the convention’s start. The requested training
was provided in October 2003 by the Boston Division’s Chief Division Counsel
and, as described in a memorandum documenting the training, “included a
detailed discussion of First Amendment case law, relevant portions of the
Privacy Act of 1974, [and the Attorney General Guidelines].” In January 2004,
the FBI’s Boston field office provided additional training on legal issues related
to criminal intelligence collection to approximately 200 law enforcement




                                        11
                                        11
personnel who would be providing protection at the convention. This training
was provided in conjunction with the U.S. Secret Service and the Boston Police
Department. 21

       The FBI also issued special bulletins in October and November 2003
relating to the potential for violent or terrorist acts in connection with Special
Events held prior to the 2004 conventions. The FBI’s first bulletin, Intelligence
Bulletin No. 89, Tactics Used During Protests and Demonstrations, was issued
in October 2003, 10 days before expected marches in Washington, D.C. and
San Francisco to protest the Iraq war. 22 It recounted some of the violent and
disruptive tactics used at past demonstrations and stated that “law
enforcement agencies should be alert to . . . possible indicators of protest
activity and report any potentially illegal acts to the nearest FBI Joint
Terrorism Task Force.”

      In November 2003, the FBI issued a related Intelligence Bulletin, the day
before the commencement of the Free Trade Area of the Americas (FTAA)
Annual Meeting in Miami. 23 After recounting the history of past FTAA
meetings and referencing Intelligence Bulletin No. 89, the bulletin stated:

       The FTAA is expected to attract anywhere from 20,000 to 100,000
       demonstrators from across the United States. Many of the
       protestors are openly planning to disrupt the conference through
       violence rather than merely conducting organized
       demonstrations. . . . Law enforcement agencies that develop
       information regarding possible terrorist threats or threats of violent


         21 One Special Agent who played a prominent role in requesting and organizing training

in anticipation of the Democratic National Convention told the OIG that it was difficult to
obtain specific guidance from FBI OGC concerning precisely what information agents could
collect, maintain, and disseminate. A May 20, 2003, memorandum from this Special Agent in
the Boston field office requesting the training described the FBI’s focus on those who might try
to disrupt the Democratic convention through criminal acts, and specifically asked for training
regarding “the Attorney General Guidelines, the Privacy Act and other applicable legal
requirements concerning the collection, retention and dissemination of intelligence.”
        22 The FBI’s Intelligence Bulletins pertaining to NSSEs are distributed to agencies

charged with securing the event, members of the intelligence community, and law enforcement
agencies in the vicinity of the event venue. A newspaper article stated that the FBI had
“collected extensive information on the tactics, training and organization of antiwar
demonstrators” and had “advised local law enforcement officials to report any suspicious
activity at protests to its counterterrorism squads.” F.B.I. Scrutinizes Antiwar Rallies, The New
York Times, Nov. 23, 2003. The FBI publicly disputed these accounts of the FBI’s activities in
preparation for these events and released on its web site the text of Intelligence Bulletin No. 89.
      23 FBI Intelligence Bulletin No. 94, Potential for Criminal Activity at Free Trade Area of

the Americas (FTAA) Annual Meeting, Nov. 12, 2003. The FBI has not publicly released this
document.



                                                12
                                                12
        or destructive civil disturbance directed against the FTAA should
        forward this information to the nearest Joint Terrorism Task
        Force. 24

       FBI-OGC and DTOS issued other guidance documents during the Spring
of 2004 relating to the surveillance of protest groups. FBI-OGC’s guidance,
entitled Protection of Civil Liberties dated March 19, 2004, identified the
circumstances under which agents may attend and conduct surveillance at
public events. While the guidance emphasized that agents may perform such
activities provided there was an established investigative purpose as set forth
in the Attorney General’s Guidelines, it also stated that other authorities, such
as those supporting the FBI’s Special Events mission, may provide the requisite
authorization. 25 With respect to the protection of First Amendment rights, the
guidance repeated the applicable General Crimes Guidelines prohibition on the
monitoring of First Amendment activity for that purpose alone: “Agents may
not conduct surveillance of individuals or groups solely for monitoring the
exercise of rights protected by the First Amendment.” FBI-OGC also provided
detailed responses to written questions and hypothetical questions posed by
the New York Office of Chief Division Counsel in advance of the Republican
convention. These questions addressed issues related to permissible
investigative activity in advance of a Special Event and the circumstances in
which the FBI lawfully could retain information received in preparation for
such an event.



         24 Shortly after issuance of these bulletins, the OIG received a request from an FBI

agent requesting an investigation of whether the two Intelligence Bulletins violated the First
Amendment or otherwise unconstitutionally blurred the distinction between lawful protest
activity and illegal terrorist acts. In response, the OIG referred these questions to the
Department’s Office of Legal Counsel (OLC), whose duties include providing legal opinions to
Executive Branch agencies. In an April 2004 opinion, which has been publicly released, OLC
stated that the bulletins “did not mandate any systematic, covert, or electronic surveillance”
but “simply requested reports from various protests on observed public acts that might be
illegal . . . .” OLC stated that the bulletins limited reports to potentially illegal acts or threats of
violence, and they “were limited to criminal activity that falls outside the First
Amendment. . . .” OLC concluded that, “Given the limited nature of such public monitoring,
any possible ‘chilling effect’ caused by the bulletins would be quite minimal and substantially
outweighed by the public interest in maintaining safety and order during large-scale
demonstrations.” Memorandum for Glenn A. Fine, Inspector General, from Jack L. Goldsmith,
Assistant Attorney General, Office of Legal Counsel, Re: Constitutionality of Certain FBI
Intelligence Bulletins.
        25  Following the conventions, in September 2004, DTOS issued supplemental guidance
concerning the monitoring of protest groups. The guidance stated that Field Division legal
counsel must review the predication for initiating any domestic terrorism matter that may
involve investigation directed at groups or persons who may be planning “criminal or terrorist
activity in relation to their exercise of constitutionally guaranteed freedoms.” The guidance
further provided that the opening communication must fully explain the predication for
initiating the case and document legal counsel’s concurrence with its sufficiency.



                                                  13
                                                  13
       DTOS issued two policy memoranda regarding the 2004 Special Events.
The most detailed of the two, entitled Guidance to Atlanta, Boston and New
York Divisions Concerning Information Collection, Maintenance, and
Dissemination for G-8, DNC and RNC Special Events, 2004, dated April 26,
2004, described the legal authority underlying the FBI’s collection and use of
information pertaining to Special Events. It also identified limitations on this
activity imposed by the Privacy Act (5 U.S.C. § 552(a)), and the Attorney
General Guidelines. With respect to the types of information that the FBI can
collect in preparation for and during Special Events, the guidance concluded:

      [I]nvestigative information and criminal and foreign intelligence
      that is pertinent to and within the scope of the FBI’s planning,
      development, and implementation of its efforts against potential
      acts of terrorism at Special Events can properly be collected,
      maintained and disseminated under the Privacy Act.

      The second DTOS policy memorandum provided guidance concerning the
proactive collection of intelligence related to Special Events. After summarizing
relevant provisions of the Privacy Act, the General Crimes Guidelines, and the
NSI Guidelines, the memorandum stated that the intelligence requested should
be limited in scope to information pertinent to a Special Event or sufficient to
predicate an authorized preliminary inquiry or full investigation. The
memorandum also stated that leads requesting such information should
contain language requesting “positive intelligence from sources with knowledge
of planned activity by individuals, domestic or international groups under open
preliminary inquiries or full investigations, as well as intelligence from any
source indicative of unlawful activity or other acts of violence.” DTOS
Guidance to FBI Field Divisions Concerning Information Request, Collection
and Dissemination for Special Events, dated May 14, 2004.

       In addition, both the Boston and New York Divisions created planning
documents to guide convention security efforts. The Boston field office created
a document identifying 33 intelligence initiatives designed “to enhance the
ability of the Boston Division to detect terrorism threats to the 2004
Democratic National Convention.” The Special Agent who prepared the Boston
document said that it functioned as the Boston office’s intelligence operations
plan for the Democratic convention. The Special Agent told the OIG that he
thought it was important to create the document “so that our actions in the
end run were measured and done with an analysis as accurate as we thought it
could be.” Documents generated by the Boston Division’s domestic terrorism
squad assigned to the Democratic convention showed that the plan played a
significant role in guiding the squad’s efforts to collect criminal intelligence
before and during the convention, and it assisted the squad in attempting to
comply with applicable guidelines and procedures.




                                       14
                                       14
       Prior to the Democratic National Convention, agents in the Boston field
office performed checks of FBI databases of persons who had been arrested for
criminal activities at demonstrations that had turned violent, including the
2000 national political conventions. 26 From this list, the FBI identified persons
with a nexus to Boston, including those who resided in, were arrested in, or
were known to be traveling to the city for the Democratic National Convention.
The Boston field office considered but rejected proposals to contact and
interview individuals on this list who had a history of violence at previous
demonstrations. According to a Special Agent on the domestic terrorism squad
assigned to the convention, nothing more was done with the list because the
FBI’s analysis showed that there was no threat of the nature that had been
seen at other events, such as the desire of particular individuals who had
engaged in violence at other demonstrations to attend the convention. The
Supervisory Special Agent (SSA) who rejected the proposal to contact and
interview individuals solely on the basis of a history of violence at previous
demonstrations told the OIG that he made this decision based on his concern
that engaging in such work so close to the date of the convention might have a
chilling effect on First Amendment rights. The SSA further stated that the
agents on his squad did not undertake investigative activity in advance of the
Democratic National Convention unless it pertained to a credible threat of
violent or criminal activity.

       In addition, the FBI sought information from its existing sources about
the upcoming conventions. For example, the Special Agent in Charge (SAC) of
the Boston field office approved a memorandum that was distributed to the
Boston Division in May 2004, and to all FBI field offices, Legal Attaché Offices,
and the Counterterrorism Division in June 2004. The memorandum requested
field offices to canvass assets and sources for information pertinent to the
Democratic National Convention. The memorandum stated that “the
intelligence solicited should not pertain solely to threats but encompass any
DNC [Democratic National Convention] related information. This approach is
being pursued as the significance of a seemingly innocuous piece of intelligence
may not be apparent until it is incorporated into the broader intelligence
picture.”

      This language is broader than the language used in DTOS’s May 14,
2004 guidance, which limited source collection to the three categories of
information described above. It also is broader than the language contained in
DTOS’s solicitation for source information related to the conventions, which



       26 The Boston office requested 2000 Republican convention arrestee booking data,

photographs, and incident reports from the Philadelphia Police Department of arrestees who
reported Massachusetts residency.



                                             15
                                             15
was limited to criminal intelligence. 27 However, we did not identify problems
with the broad request for source reporting resulting from Boston’s solicitation.
Our review of source information that was documented in the FBI’s files
indicated that the source information provided to the FBI was legitimate law
enforcement information pertinent to the FBI’s security mission at the
conventions.

       We found that the New York field office did not distribute memoranda to
the field and others seeking intelligence equivalent to Boston’s May 2004
memorandum, opting instead to rely upon the earlier memoranda that had
been sent by FBI Headquarters. The SSA who supervised the New York
counterterrorism squad assigned to the Republican National Convention told
the OIG that the New York field office did not actively collect information about
groups that were planning on coming to New York to protest, although the
office identified persons in the New York area who had a previous history of
criminal activity at any demonstration. FBI agents assigned to the FBI’s New
York field office conducted searches of FBI databases for eight people who were
identified as having committed violence at earlier demonstrations. According to
the SSA, no interviews were conducted as a result of this research. The FBI
contacted the probation officer for one of the eight individuals, however, to
determine whether the person had been abiding by the terms of the probation.

      According to the New York SSA, the FBI in New York relied upon local
law enforcement to address domestic threats posed by persons who were not
the targets of open FBI investigations. This reliance on local law enforcement
was apparent with respect to the collection and dissemination of intelligence as
well. For example, during the Republican National Convention, the FBI did not
deploy its own crisis management software (the ICON system) to manage threat
and public safety information, but instead relied upon a comparable service
maintained by the New York Police Department which connected law
enforcement agencies throughout the state. 28

      Lastly, in the months leading up to the two conventions, DTOS identified
threat information from ongoing investigations that was relevant to security at
the conventions. For example, in July 2004 it sent a request to all field offices


       27  DTOS sent a memorandum in May 2004 to all field offices requesting the offices to
forward intelligence “from sources with knowledge of planned criminal activity by individuals,
domestic or international groups under preliminary inquiries or full investigations, as well as
intelligence from any source indicative of unlawful activity or other acts of violence regarding”
the 2004 NSSEs.
        28 By contrast, the FBI’s Boston Division deployed computer software that facilitated

the collection and dissemination of convention security information. The FBI’s New York Field
Division was prepared to deploy the ICON system to manage the flow of information in the
event of a terrorist attack or large scale crisis.



                                                16
                                                16
seeking information concerning the movements of subjects of terrorism
investigations known to be traveling to Boston or New York during the period of
the conventions. The FBI also issued written threat assessments that
evaluated potential threats to the conventions and shared intelligence with
other law enforcement agencies.


IV.    FBI INVESTIGATIVE ACTIVITY RELATED TO POTENTIAL
       PROTESTERS AT THE 2004 DEMOCRATIC AND REPUBLICAN
       NATIONAL CONVENTIONS

       In this section, we describe the results of our review of the FBI’s
investigative activity related to potential protesters at the Democratic and
Republican national conventions. Our review determined that in addition to
the preparatory actions described above, the FBI carried out various domestic
terrorism-related investigative activities in advance of and during the
conventions that concerned potential violent convention protesters, including
name searches in FBI databases, mail covers, interviews, and physical
surveillance. We concluded that in each instance the FBI conducted this
activity for legitimate law enforcement purposes pursuant to the General
Crimes Guidelines which authorize the checking out of leads and the opening
of preliminary inquiries and full investigations. We identified no investigations
initiated based upon authorities contained in classified PDDs or other legal
sources. 29

      We found that the FBI’s investigative activities designed to address
domestic terrorism threats to the conventions focused on 17 distinct protester-
related threats, 14 of which resulted in interviews of 1 or more individuals.
The nature of these threats varied. For example, in four cases the FBI received
information indicating that persons who intended to demonstrate in Boston or
New York also were planning on bombing sites at the conventions. The FBI
was also made aware that a group with an extensive criminal history was
known to be planning violent confrontations with police in one of the
convention cities. In another matter, a convicted domestic terrorist was
believed to be attempting to obtain a dangerous chemical, potentially for use
against the police.

      The FBI’s response to the threat information it obtained prior to and
during the conventions varied depending on the specificity and seriousness of


        29 We exclude from this universe the FBI’s routine tapping of existing sources to

identify possible threats. The FBI told the OIG that it did not open any new confidential
informants solely in connection with addressing threats to the two conventions or otherwise in
connection with convention preparations.



                                              17
                                              17
the threat. Six of the threats led the FBI to open either a preliminary inquiry or
full investigation, while in three instances the FBI opted to address threats
through interviews conducted as part of the limited checking of leads. The
remaining eight threats were addressed through investigative activity
undertaken in ongoing investigations that were not initiated in connection with
the 2004 conventions.

       With respect to interviews, we determined that the FBI identified 74
persons and the residents of 3 addresses to contact who satisfied the following
criteria: 1) they were likely convention demonstrators or, through affiliation
with one or more organizations or persons, were individuals with access to
information about potential protest activity at the conventions; and 2) they
were persons whom the FBI reasonably believed had or might have knowledge
about planned criminal acts at the conventions. The FBI also contacted and
interviewed an additional eight individuals in an attempt to locate persons who
satisfied the two criteria above. Of the individuals targeted for contact, the FBI
was successful in locating 60 persons in 9 states, of whom 41 agreed to be
interviewed. The following table presents the total numbers of interviews
related to the 17 protester-related threats that the FBI investigated.




                                        18
                                        18
                    Protester-Related Interviews Associated with the
                 2004 Democratic and Republican National Conventions

                                                  No. of Persons   No. of        No. of Persons
                  Threat No.                      Identified for   Persons       Providing
                                                  Interviews       Contacted     Information
Interviews Conducted Pursuant to
Preliminary Inquiries and Full Investigations
(Threats 1-6)
1                                                       40              27             16
     Address 1                                          NA             (6)*           (6)*
     Address 2                                          NA              6              0
     Address 3                                          NA              0             NA

                        Subtotal for Threat 1           40              33             16

2                                                       11              8              8
3                                                       NA              2              2
4                                                        1              1              1
5                                                        2              2              2
6                                                        6              4              4
                        Subtotal for Inquiries
                                                        60              50             33
                          and Investigations
Interviews Conducted Pursuant to Leads
Checking (Threats 7-9)
7                                                        4              4              4
8                                                        2              2              1
9                                                        1              1              1

                  Subtotal for Leads Checking            7              7              6

Interviews Conducted Pursuant to Terrorism
Enterprise Investigations Not Associated
With the Conventions (Threats 10-17)
10-13                                                    6              2              1
14                                                      NA              NA            NA
15                                                      NA              NA            NA
16                                                      NA              NA            NA
17                                                       1              1              1

             Subtotal for Other Investigations           7              3              2

                    TOTAL                               74              60             41

TOTAL Less Interviews Conducted to Locate
   Persons With Knowledge of Potential                  67              52             33
            Criminal Activity

 *Six persons identified for interviews concerning Threat 1 were located at Address 1. To avoid
  double counting, we did not include these six persons in the number of individuals contacted
  or who provided information.




                                                 19
                                                 19
       In one instance that we discuss in more detail below, the FBI and the
Department of Justice attempted to compel testimony of three witnesses
through a grand jury. The FBI also conducted physical surveillance in eight
cases where persons were expected to travel to the conventions and to
participate in protest activity. The FBI informed the OIG that it did not initiate
any undercover operations directed at the conventions or open new sources for
the purpose of infiltrating convention protest groups.

       In a limited number of cases the FBI’s investigative work on matters not
associated with the conventions generated convention-related criminal
intelligence that did not result in the opening of an independent inquiry or
investigation. An example of this kind of information is source reporting to the
FBI regarding persons who were the subjects of ongoing FBI investigations and
who intended to attend one or more of the conventions.

       The FBI told the OIG that it did not utilize its authority under Part VI.A.2
of the General Crimes Guidelines to attend convention-related public events for
the purpose of detecting or preventing terrorist activity. In both Boston and
New York, the monitoring of crowd movements and demonstration activities at
the conventions was conducted and managed by local law enforcement.
However, the FBI had agents pre-positioned at both convention venues, such
as hazardous materials response teams, to identify and respond to terrorist
threats. We were told by the FBI that their purpose was not to monitor the
exercise of First Amendment rights or to engage in activities that are the
function of local law enforcement, such as crowd control and public safety.

       In the following sections, we describe in greater detail the FBI’s
investigative activities related to potential convention protesters. For each
threat we identify the level of investigative activity (such as checking leads or
initiating a preliminary inquiry or full investigation) and the characteristics of
the information that prompted the FBI to initiate the investigative actions. 30
We first describe convention-related threats that the FBI addressed in one of
three ways: 1) through the opening of a new preliminary inquiry or full
investigation; 2) through the limited checking of leads; or 3) through ongoing
investigations not associated with the conventions. We then examine FBI
investigative activities that generated convention-related criminal intelligence
(not rising to the level of a threat) from ongoing investigations not associated
with the conventions.


       30 In this report, because of sensitivity concerns we do not describe the sources and

methods that the FBI utilized to identify the protester-related threats to the conventions. We
also have limited the information we provide about the targets of the FBI’s investigations for
privacy reasons and because certain of the investigations described in this Section are ongoing.
We therefore present threat information generically (e.g. “Threat 1”) rather than identify the
source of the threat or target by name.



                                              20
                                              20
      A.    Convention-Related Threats Addressed Through the Opening
            of a Preliminary Inquiry or Full Investigation

       Of the 17 convention-related threats that the FBI investigated prior to or
during the Democratic and Republican national political conventions, 6
resulted in the opening of a preliminary inquiry or full investigation in
accordance with the General Crimes Guidelines. In each of the cases below
(Threats 1-6), the FBI received information indicating that violent criminal
activity was being planned for one or both of the conventions. Of the 60
protester interview-related contacts that the FBI initiated, 50 occurred in
response to 1 of the 6 threats described below.

            1.    Threat 1

       In June 2004, the FBI learned that a group was planning acts of violence
at one or both of the political conventions (Threat 1). The FBI considered the
information it received to be credible and the potential for harm serious. After
consultations with local law enforcement, the FBI identified 40 persons and the
residents of 3 addresses for interviews pertaining to this threat. The FBI
eventually located and contacted 33 persons in 3 states, 17 of whom refused to
answer questions from the agents, and 16 whom agreed to furnish information.
Of all the protester-related interviews that the FBI conducted in advance of the
conventions, more than one third were associated with Threat 1. As discussed
below, the three primary targets of the FBI’s investigation later were
subpoenaed to appear before a grand jury following their refusal to cooperate
with the FBI.

       After the FBI became aware of Threat 1, the Domestic Terrorism
Operations Unit (DTOU) at FBI Headquarters coordinated efforts to learn more
details about the identities and intentions of the individuals believed to be
associated with the threat. Various conference calls and meetings were held
between FBI Headquarters and field offices to devise a strategy to obtain more
information. In July 2004, an FBI field office initiated a full investigation. In
an attempt to identify the scope of the planning, the FBI obtained subpoenas
for certain Internet subscriber account information that the FBI believed could
contain information about the threat. The decision to initiate interviews was
made by the leadership of DTOU in consultation with management of the FBI’s
Counterterrorism Division and FBI-OGC. Prior to conducting interviews, the
FBI, at times in conjunction with the Department of Justice, considered and
rejected the use of more intrusive investigative methods.

      According to the four FBI agents who were principally involved in
investigating Threat 1, the persons who were identified for interviews either
were believed to be involved in planning violent acts at the conventions, resided
or associated with persons who were believed to be making such plans, or

                                       21
                                       21
otherwise reasonably could be expected to be in a position to hear about the
plans. The FBI documents we reviewed confirmed that the FBI agents assigned
to this matter sought to interview only persons who had, or were believed to
have had, information about threats of violence to the conventions. Several of
the persons identified for interviews had criminal records associated with
violent demonstrations, while others were known to be attempting to acquire
firearms. Two persons identified and located for interviews were arrested for
outstanding criminal warrants at the time they were interviewed.

      The FBI instructed its agents to ask the interviewees associated with
Threat 1 three questions that focused exclusively on potential criminal activity.
The memorandum to the field July 22, 2004, setting leads for the interviews
instructed agents to ask the following three questions:

      1.    Are you aware of any persons who are planning disruptive
            behavior, of a criminal nature, at the
            - Democratic National Convention
            - Republican National Convention
            - Presidential Debates
            - Elections
            - Other events?

      2.    If yes – provide details.
            If no – Would you tell me if you were aware of any such
            plans?

      3.    Are you aware that persons assisting others in planning or
            preparing for a criminal act may be charged with a crime?

As its investigation progressed, the FBI learned that three persons were largely
responsible for Threat 1. The FBI asked these individuals the questions above,
but each declined to provide any information.

      Because the FBI considered the threats posed by the three individuals to
be serious, the FBI initiated physical surveillance of the three and sought
assistance from an Assistant United States Attorney (AUSA) to compel their
testimony before a grand jury. One FBI agent told us that a conference call
was held between DTOU and several FBI field offices to assess what to do given
the threat and the targets’ refusal to talk to the FBI. The call took place at the
end of the week preceding the Democratic National Convention, which started
the week of July 26, 2004.

      The AUSA in the district which initiated the full investigation of this
threat told the OIG that he thought it was his idea to bring the three
individuals before a grand jury. The AUSA stated that the return date on the
subpoenas for testimony was set for the earliest possible open appearance time

                                       22
                                       22
before the grand jury, because time was of the essence. The AUSA also said
that it was not his goal or that of the FBI to prevent the three from attending
the Democratic National Convention by requiring their testimony before the
grand jury. He said that the FBI and DOJ wanted to be able to assess the
threat before it had an opportunity to develop at the convention. The
subpoenas, along with target letters, were issued and served on the three
individuals on Monday, July 26, the same date that the Democratic National
Convention began. The subpoenas required the three to appear before the
grand jury on Thursday, July 29 at 11:00 a.m. All three came to the grand
jury and declined to testify citing their Fifth Amendment privilege against
compelled self-incrimination. The FBI continued its surveillance until it was
satisfied that the three were not traveling to Boston during the Democratic
National Convention.

      Following this investigation, in anticipation of the Republican National
Convention, the FBI initiated preliminary inquiries on four other persons who
were believed to be familiar with the above-described plans to disrupt one or
both conventions. One of these individuals was interviewed by the FBI.

            2.    Threat 2

       The FBI received information indicating that a group of individuals
planned to gather from around the country at several locations near a
metropolitan area to plan activities in preparation for travel to one of the
political conventions. The information also indicated that persons participating
in these gatherings would be preparing to engage in criminal activities at the
convention. The FBI earlier was made aware that one of the expected
participants had made public statements to the effect that he intended to
organize events to disrupt the convention, such as by harassing delegates,
damaging property, and conducting cyber attacks. Based on this information,
the FBI opened a preliminary inquiry. Agents interviewed the individual prior
to the convention, and he stated that he did not intend to engage in activity
other than peaceful demonstrations.

       The FBI conducted physical surveillance of the gathering sites and
several locations which the participants were believed to frequent. As a result
of investigative activity conducted during the gatherings, local law enforcement
arrested three participants on various charges, including vandalism and theft
of property from local retail establishments. Property stolen during the
gatherings was recovered and returned to its owners. The FBI also became
aware that one of the participants had acquired PVC pipe and a flammable
liquid and had made statements that he intended to build a pipe bomb. That
person was interviewed by the FBI and local law enforcement.




                                       23
                                       23
            3.    Threat 3

       The FBI received information indicating that an individual with a lengthy
arrest record for civil disobedience was planning to travel to one of the
conventions. The FBI was also made aware that this individual had been
contemplating committing a violent act to draw attention to a particular
political cause. Based on this information, the FBI opened a preliminary
inquiry. The FBI initiated physical surveillance of the individual, and agents
and task force officers interviewed the individual and one of his colleagues in
the convention city.

            4.    Threat 4

      The FBI field office in one of the 2004 convention cities learned that an
individual with a history of committing serious crimes, including acts of
domestic terrorism, was meeting with persons who were believed to be
planning for criminal activity at the convention. The FBI also received
information that the individual was attempting to acquire a weapon for his “self
defense” and to “safeguard” his associates. Based on this information, the FBI
opened a preliminary inquiry. The local Joint Terrorism Task Force conducted
surveillance of the individual, and task force officers interviewed him during
the week of the convention.

            5.    Threat 5

      The FBI received information about an individual with a mental illness
who had told an acquaintance that he planned to protest at one of the
conventions and expected in the near future to sustain life-threatening
physical injuries. The individual had a history of participating in
demonstrations across the United States and at one time was known to have
made inquiries about the properties of an incendiary material. The FBI opened
an investigation and interviewed the individual and a relative.

            6.    Threat 6

       The FBI in one of the convention cities learned that a group of persons
was attempting to violently disrupt the upcoming convention. This group was
the subject of an ongoing domestic terrorism investigation. The FBI initiated
physical surveillance and employed other investigative techniques targeted at
the group during its investigation. As a result of this work, the FBI learned
that an individual who associated with the group had made statements
indicating an intention to carry out criminal acts at the convention. The FBI
interviewed the individual prior to the convention. In addition, based on
information provided by a local police department, the FBI directed agents to
locate three persons whom the police believed could be preparing to carry out



                                       24
                                       24
violent acts at the convention. The FBI visited the residence of two of the
suspects but did not locate them there.

            7.    OIG Analysis

       Each of the threats described above resulted in the FBI’s initiation of a
preliminary inquiry or full investigation after determining that the information
showed either the possibility of criminal activity at one or more of the
conventions or reasonably indicated that a federal crime had been, was being,
or would be committed. For each case, we reviewed the opening
documentation that identified the basis for the inquiry or investigation and the
information that the FBI relied upon to establish the necessary predication.
Our review concluded that the information supporting the opening of these
cases was particularized and appeared to be based on established or otherwise
reliable sources.

       The most resource-intensive threat was Threat 1, which accounted for
more than half of all the protester interview-related contacts the FBI conducted
in advance of the conventions. Shortly after learning about this threat, the FBI
started a full investigation under the General Crimes Guidelines. The basis for
opening the investigation was information indicating that persons were
planning acts of violence at one or more of the political conventions. We believe
this information satisfied the “reasonable indication” standard of the
Guidelines. The persons subsequently identified for interviews during the
investigation were believed by the FBI to possibly have knowledge concerning
the identified threat. According to the FBI, as documented in its files, the
persons identified for interviews either were believed to be involved in planning
violent acts at the conventions, residing or associated with persons who were
believed to be making such plans, or otherwise reasonably could be expected to
be in a position to hear about the plans. This last group of persons consisted
of persons whom the FBI believed were acquainted with the targets of the
investigation and would be likely to hear about any plans for violence either
directly or indirectly through social contacts. In all, the FBI identified 40
persons and the residents of 3 addresses for interviews, and eventually located
and contacted 33 persons in 3 states. These interviews yielded information
suggesting that further investigative activity was warranted.

      Likewise, we found no evidence indicating improper investigative activity
arising from the FBI’s and the Department’s decision to subpoena the targets
and compel their appearance before a grand jury the week of the Democratic
convention. The AUSA assigned to the matter stated that the return date on
the grand jury subpoenas was set for the earliest possible open appearance
time before the grand jury after he learned that the targets would not cooperate
with the FBI’s interviews.




                                       25
                                       25
       Threat 2 also involved multiple interviews, all of which were conducted
pursuant to a preliminary inquiry opened under the General Crimes
Guidelines. As with Threat 1, the FBI received information indicating that
certain individuals might have been planning violent, criminal activity at one or
both conventions. Interviews for Threats 3 through 5 were focused on three
individuals on whom the FBI had opened two preliminary inquiries and one full
investigation. In each case, the FBI obtained information that the individuals
possibly were involved in preparing for violent, criminal activity at one of the
conventions. Threat 6 involved a group that was the subject of a domestic
terrorism investigation. Our review of the FBI’s records in this investigation
revealed that one of the interviews conducted was of an associate of the group
after the FBI learned that the person had made statements indicating an
intention to commit criminal acts at one of the conventions. For Threats 2
through 6 we determined that the FBI had information establishing a
reasonable indication of criminal activity warranting the initiation of
investigative activity under the General Crimes Guidelines.

      We also determined that the FBI employed physical surveillance in all
but one of the cases described above. The documentation describing these
surveillances indicated that they were related to the objectives of the
investigations.

       B.      Convention-Related Threats Addressed Through the Checking
               of Leads

       The following three threats (Threats 7-9) did not result in the opening of
a preliminary inquiry or full investigation. In each matter the FBI responded to
information it obtained by contacting the persons who were the primary
subjects identified from the information. The limited checking of leads revealed
that no further investigative activity was warranted with regard to threats
directed at one of the 2004 conventions. 31 Of the 60 domestic terrorism-
related contacts initiated in advance of or during the conventions, 7 were
undertaken in connection with one of the 3 threats described below.




       31  With respect to leads that did not result in interviews, we also identified situations
where field personnel determined from the checking of leads that the threat of criminal activity
was not present and thereafter refrained from further investigative activity. For example, in
one matter we found that field personnel contemplated conducting an interview of an
individual because the FBI had received information that he was providing training to others to
commit criminal acts at one of the conventions. After receiving additional information
indicating that the individual was not providing this training, the field personnel decided not to
proceed with an interview. The FBI stated in a memorandum November 8, 2004, that “[s]ince
no evidence of potential criminal and/or violent activity was apparent, [the individual] was not
interviewed.”



                                               26
                                               26
            1.     Threat 7

       The FBI field office in one of the convention cities was contacted by the
local U.S. Attorney’s Anti-Terrorism Advisory Council regarding the arrest by
local law enforcement of three persons at a location away from the convention
venue. According to the FBI, materials found on the individuals raised
concerns with the arresting officers that the individuals might have been
involved in planning acts of domestic terrorism at the convention. The FBI
interviewed the individuals and an acquaintance who assisted them. Based on
the results of the interviews, the FBI took no further action with respect to the
possible threat against the convention.

            2.     Threat 8

        An FBI field office obtained information indicating that representatives of
an organization that was the subject of an ongoing FBI terrorism enterprise
investigation would be attending one of the conventions. The organization was
known to provide instruction in violent demonstration techniques and was
believed to have trained an individual who resided in one of the convention
cities in preparation for the convention. The FBI learned that the individual
had a criminal arrest record resulting from a recent demonstration and was
believed to be associating with an individual who, according to the FBI, was
affiliated with domestic terrorist groups and had a long history of violent
activity. FBI agents told the OIG that agents contacted the person because the
person could have information about planning for criminal activity at one or
more of the conventions, or be intending to participate in such activity. The
FBI also wanted to determine if the person would share knowledge, which was
believed to be extensive, about groups that were involved in significant violence
at some of their demonstrations, and whose members were expected to attend
the conventions. The person did not agree to be interviewed. The FBI also
contacted and interviewed an acquaintance of that person to determine the
circumstances surrounding the person’s prior criminal activity at a recent
demonstration. The FBI took no further action on this lead.

            3.     Threat 9

       The FBI was aware that a convicted felon with a lengthy arrest record
that included crimes of violence had made public statements calling for
criminal activity at one of the conventions. During the convention, the FBI
obtained information indicating that the individual may have been near the site
of the convention preparing to commit crimes. The FBI contacted the




                                        27
                                        27
individual at his residence to confirm his location. 32 The FBI took no further
action on this lead.

               4.     OIG Analysis

       The FBI addressed these three threats through the checking out of leads.
We reviewed the information available to the FBI when it decided to interview
the subjects and agree that the information pointed to possible criminal
activity. Based on our review, we believe that the FBI’s actions in these
matters were in conformity with the General Crimes Guidelines.

       C.      Convention-Related Threats Addressed Through Investigations
               Not Associated with the Conventions

       Unlike matters that prompted the initiation of preliminary inquiries or
full investigations focused on specific threats to the conventions, in several
instances the FBI’s investigative efforts were conducted as part of ongoing
investigations that were initiated prior to the time the FBI learned of possible
links to the 2004 conventions. These account for eight of the threats that the
FBI addressed prior to and during the conventions.

               1.     Threats 10-13

       Threats 10 to 13 concerned potential threats posed by four violent
groups. All four groups were the subjects of ongoing terrorism enterprise
investigations. The FBI received information indicating that extremists related
to the groups were planning to attend one of the conventions. Based on past
actions of the groups, the FBI was concerned that their members would
attempt to violently disrupt the convention. In light of the information it had
received, the FBI in one of the convention cities directed agents to investigate
whether local chapters of the four groups and their leaders posed a threat to
the convention. Of the six persons identified for contact, the FBI located two
prior to the convention, one of whom provided information while the other
declined to be interviewed. All of the investigative activity related to these
individuals was conducted pursuant to terrorism enterprise investigations that
previously had been opened on the four groups.




       32 A preliminary inquiry was later opened on this individual concerning conduct the

FBI believed could constitute solicitation to commit an act of violence in accordance with
18 U.S.C. § 373. The basis for the inquiry was not related to the individual’s earlier potential
appearance at one of the conventions.



                                               28
                                               28
            2.     Threat 14

      The FBI was made aware that a group of individuals associated with an
organization with an extensive criminal history was preparing to engage in
violent confrontations with the police at one of the conventions. Agents from
an FBI field office conducted physical surveillance of the individuals as part of
its ongoing investigation of the group.

            3.     Threat 15

       During its investigation of a group for possible violations of numerous
federal criminal statutes, including manufacturing explosive material without a
license and solicitation to commit a crime of violence, the FBI learned that one
of the group’s members was traveling to a location near one of the convention
sites. The FBI initiated physical surveillance of the individual as part of its
ongoing investigation of the group.

            4.     Threat 16

       The FBI learned that a convicted felon likely had been in possession of a
firearm and was contacting persons who were either under investigation by the
FBI for domestic terrorism offenses or had previously been convicted of crimes
of violence. The FBI opened an investigation on the individual and
subsequently learned that he attended an event where plans were discussed to
violently disrupt one of the conventions. The FBI initiated physical surveillance
of the individual and conducted other investigative activities.

            5.     Threat 17

       The FBI was aware that an individual had made public statements
calling for criminal activity at various public events. The individual had a
lengthy arrest record and was believed to have formed an organization that
supported the use of violence to achieve its goals. The FBI interviewed an
acquaintance of the individual after opening a preliminary inquiry and asked
whether he had left the area to attend one of the conventions.

            6.     OIG Analysis

      The FBI addressed eight threats pursuant to open investigations that
were not initiated in connection with the two 2004 political conventions. For
each of these threats the FBI had information indicating either that criminal
acts were being planned or were possible in light of the actions of the targets of
the investigation. Of the eight cases, six were terrorism enterprise
investigations (TEI) of groups that advocated violent tactics to advance
particular political causes. The evidence indicates that these investigations
were properly predicated and that the purpose of the FBI’s convention-related

                                        29
                                        29
investigative activity was reasonably related to the goals of the underlying
investigation. The investigative techniques employed by the FBI to address the
threats posed to the conventions were undertaken in a manner consistent with
the requirements of the General Crimes Guidelines. The remaining threats
involved the activities of two convicted felons, and the FBI’s investigative
activity of them also fit within the scope of the underlying investigations and
the requirements of the General Crimes Guidelines.

         D.       Convention-Related Criminal Intelligence Generated from
                  Investigations Not Associated with the Conventions

       Our review of the FBI’s investigative work in preparation for the
Democratic and Republican national political conventions also identified five
terrorism enterprise investigations not associated with the conventions that
generated convention-related criminal intelligence not warranting the opening
of a separate inquiry or investigation. The focus of much of this intelligence
was on the identities of persons who were subjects of, or referenced in, ongoing
FBI investigations who were planning to attend the conventions. None of these
matters resulted in interviews or physical surveillance by FBI agents of persons
intending to demonstrate at the conventions.

      Two other terrorism enterprise investigations generated intelligence that
contributed to the opening of a preliminary inquiry and a full investigation
respectively. These matters both concerned threats to the conventions
described in Section IV.A above and involved interviews and physical
surveillance of potential convention protesters. 33

      For all seven terrorism enterprise investigations, we identified no
investigative technique that generated convention-related criminal intelligence
that was undertaken in violation of the applicable Attorney General Guidelines.

         E.       Alleged Pretext Interviews of Potential Convention Protesters

        Another aspect of the FBI’s investigative activities that generated
controversy was the alleged use of “pretext interviews” in the period
immediately preceding the Democratic National Convention. Citing documents
released in civil litigation, a news article reported in May 2005 that members of
“leftist protest groups” had been subjected to “pretext interviews” by the FBI
before the two 2004 national conventions. 34

         33   There were 24 protester-related interviews conducted in these 2 domestic terrorism
matters.
          Dan Eggan, Protesters Subject to ‘Pretext Interviews,’ Washington Post, May 18, 2005.
         34

As reported in the article, according to the American Civil Liberties Union, the FBI’s anti-
terrorism task forces were “collecting information about peaceful protestors and dissenters and
(continued)



                                                 30
                                                 30
      The term “pretext” in common parlance can have a pejorative
connotation, and several individuals contacted for interviews by the FBI were
quoted in news articles questioning whether the FBI had singled them out for
an interview for improper purposes, such as to prevent them from traveling to
the conventions to protest peacefully or to exercise other protected First
Amendment rights.

       In response to these concerns, the FBI stated:

       The interviews reflected in these isolated documents were based on
       a specific and credible threat received by the FBI regarding
       potential violent and criminal activity that could have caused death
       or serious bodily injury and was to occur during the Democratic
       National Convention. . . . It is the FBI’s top priority to prevent any
       act of terrorism, which requires special agents of the FBI to
       thoroughly investigative every credible threat received. 35

      The term “pretext interview” is not defined in the FBI’s current Manual of
Investigative Operations and Guidelines (MIOG) or in any recent guidance
issued by the FBI-OGC. However, guidance on file with FBI-OGC from 1980
states that “[a] pretext interview is a legal and proper investigative technique
used when it is necessary to accomplish an investigative end without disclosing
the FBI’s interest and the reasons for the inquiry.” 36 The current version of the
MIOG references the acceptable use of “pretext interviews” in several contexts,
including domestic terrorism cases. 37

      Our review examined several documents that referred to the use of a
“pretext” when the FBI contacted individuals to be interviewed in connection
with the 2004 conventions. The first, an EC dated July 22, 2004, from the
St. Louis field office, set leads for interviews, stating:

       Additional Anarchist affiliated persons would be interviewed in
       Missouri, Kansas, and Colorado. The pretext of the interview will
       be to gain general information concerning possible criminal activity


targeting people for attention on the basis of constitutionally protected association and
advocacy.” Id.
       35   Id.
       36   FBI-OGC Guidance, dated April 9, 1980.
        37 See §§ 58-5(3)(Predication); 194-4(3)(Predication); and 266-1(4)(c)(Acts of Terrorism –

Domestic Terrorists). Pretext interviews are to be distinguished from interviews in which
someone falsely claims to be an officer or employee of a department or agency of the United
States in violation of 18 U.S.C. § 912. FBI-OGC Guidance, dated April 9, 1980.



                                               31
                                               31
       at the Democratic National Convention, Republican National
       Convention, Presidential debates, and the election. The purpose of
       the interviews will be to increase intelligence in this area and
       discourage the interviewees from traveling to any of the above to
       criminally disrupt the event.

       The second reference to the term “pretext” we found was in a
memorandum responding to the St. Louis EC. In its August 2, 2004, response,
the Denver field office explained that it had covered several leads and repeated
the St. Louis EC’s characterization that the interviews requested by the
St. Louis field office were “pretext interviews:” “Referenced EC set several leads
for the Denver Division to conduct pretext interviews to gain general
information concerning possible criminal activity at the upcoming political
conventions and presidential elections.”

       Following the Republican National Convention and press coverage
concerning the FBI’s interviews of potential convention protesters, FBI-OGC
prepared an analysis in September 2004 related to the pretext interview
issue. 38 The FBI-OGC memorandum noted that the leads set by the St. Louis
field office for “pretext” interviews had three objectives: to seek intelligence
about criminal activity, to prevent individuals from carrying out their plans to
commit criminal acts at the Democratic National Convention, and to protect
FBI sources and methods. The memorandum stated:

       The interviews conducted in this case served several purposes. In
       the referenced [July 22, 2004] St. Louis EC, the interviews are
       described as “pretext” interviews, suggesting that they were
       conducted for purposes other than to seek the requested
       information. Even though pretext interviews are an authorized
       technique and would have been justified for the second and third
       reasons stated [above], it appears that they were only pretext in
       part. The interviews did seek valuable information from persons
       who were reasonably believed to possess it. Therefore, although
       they served an ulterior purpose as well, they were not purely
       pretextual in nature.

      We determined that the agents conducting the interviews in response to
the St. Louis lead did not use a false identity or false pretense to hide the fact
that they were seeking convention-related threat information. The FBI Special
Agent who drafted the July 22, 2004, St. Louis EC told the OIG that the “main
objective” of the interviews was to gather information about a potential threat


       38  FBI-OGC memorandum entitled Investigative Law Unit - Constitutional Rights Control
File, dated September 16, 2004.



                                             32
                                             32
to the conventions. The EC’s explanation that “the pretext of the interview will
be to gain general information concerning possible criminal activity at the
[conventions]” therefore is not accurate because the gathering of such
information was the primary purpose of the interviews, not a “pretext.” The
agent told the OIG that, in hindsight, his use of the word “pretext” in the
St. Louis EC was a “poor choice of words” and was not accurate. In his view, a
pretext interview is one in which the FBI does not reveal the “real reason for
the interview,” and this was not the case with respect to the reported
interviews. Rather, the leads that he set required agents to pose specific
questions that revealed that the interviews were being conducted to ask
specific questions in order to collect information about possible criminal or
terrorist activity at the conventions.

     The Special Agent who drafted the St. Louis EC stated, however, that the
interviews could be understood to be a “pretext” since the questions that the
agents posed did not reveal the extent of the FBI’s knowledge of the threats
under investigation or the sources of their information, but instead were cast
as general questions about potential criminal activity. Both the St. Louis lead
and the FBI-OGC memorandum describe how the requested interviews could
serve to protect FBI sources and methods. The St. Louis Special Agent stated
that in his view the “pretext” of the requested interviews was to conceal how
the FBI was acquiring intelligence about a threat to the convention. This
interpretation was shared by the author of the September 2004 FBI-OGC
memorandum, who explained in the memorandum that the interviews were
“pretext in part” because agents were justified in relying upon a pretext
(pretending not to know specific details about the potential threats) in order to
conceal the sources and methods that prompted them to conduct the
interviews.

      FBI documentation of the interviews set by the St. Louis lead also used
the term “pretext” in referencing a possible consequence of the planned
interviews: to deter people who may have been planning violent or other
criminal activity from carrying out criminal acts. This interest also was not
explicitly disclosed by the FBI when interviewing people before the Democratic
National Convention in response to the St. Louis lead. However, the FBI-OGC
memorandum recognized the FBI’s interest in deterring criminal activity as
justification for use of a “pretext” in the interviews.

      Although the interviews may have resulted in preventing
      individuals from traveling to the DNC, the interviews were not
      conducted for the purpose of preventing the exercise of protected
      First Amendment activity, but rather, were focused on the
      prevention of criminal activity.

The Special Agent who drafted the St Louis EC similarly told us that a benefit
of interviewing persons who planned on committing criminal acts at the

                                       33
                                       33
Democratic convention “was the hope that . . . if they are confronted about it
[i.e., the criminal activities], they wouldn’t do it.”

       What generated controversy regarding the FBI’s reliance on “pretext
interviews” in advance of the political conventions was the concern that agents
were illegitimately conducting interviews in order to chill potential protesters
from exercising their protected First Amendment rights. Based on our review,
we do not believe that the interviews conducted by the FBI in response to the
St. Louis EC were “pretext interviews,” either as defined to us by FBI-OGC or
as understood colloquially to mean the improper use of interviews to chill
exercise of the interviewees’ First Amendment rights. FBI agents did not use
false identities during the interviews and made no attempt to conceal the fact
that they were seeking information about possible criminal or terrorist
activities at the conventions. In addition, they interviewed persons they had
reason to believe possessed relevant information about potential criminal or
terrorist activity.

       Our review determined that the interviews were conducted because the
FBI was addressing what it believed was a serious threat of violence, and that
but for that credible threat the interviewees would not have been approached
by the FBI. We also found no evidence that the FBI was attempting by these
interviews to prevent anyone from traveling to the conventions to exercise
protected First Amendment rights. As explained elsewhere in this report, the
FBI’s investigative activities, including these interviews, were focused on the
prevention of criminal and terrorist acts at the two conventions.

       That said, the various references we identified in FBI documents to
“pretext interviews” were confusing and inconsistent and, given the pejorative
connotation of the term, understandably generated concern about whether the
FBI had impermissibly violated First Amendment rights. In a vacuum, without
understanding that agents were attempting to conceal the sources and
methods it used to obtain this threat information, the references could be
misconstrued to refer to the fabrication of a reason to approach the
interviewees. However, based on our interviews and examination of FBI
documents, we concluded that the reference to “pretext” referred to the FBI’s
efforts to protect the way it was collecting intelligence about a particular
convention threat in order to prevent criminal or terrorist acts at the
conventions. In sum, we concluded that these interviews were not conducted
for any improper purpose.


V.    CONCLUSION

      Our review examined the FBI’s investigative activity leading up to and
during the 2004 Democratic and Republican national political conventions,
including interviews, physical surveillance, and other investigative techniques.

                                       34
                                       34
The evidence indicated that the FBI engaged in these investigative activities
because the threat of criminal activity existed. We found that the FBI’s
conduct was consistent with the applicable Attorney General Guidelines. We
also found no evidence that the FBI’s actions were undertaken for the purpose
of discouraging the exercise of First Amendment rights. We concluded that all
of the interviews we reviewed were conducted for legitimate law enforcement
purposes.

      Nearly all of the FBI’s protester-related investigative activity was devoted
to addressing 17 distinct threats to the conventions. The nature of these
threats was diverse, though all involved the potential for violence, including
potential bombings. In response to six of the threats, the FBI opened a
preliminary inquiry or full investigation after determining that the information
presented showed either the possibility of criminal activity at the conventions
or reasonably indicated that a federal crime had been, was being, or would be
committed.

       The FBI addressed eight other threats pursuant to open investigations
that were not initiated in connection with the political conventions. For each
convention-related threat in this category, the FBI had information indicating
either that criminal acts were being planned, or were possible, if not likely, in
light of the actions of the targets of the investigation.

      The FBI addressed three threats through the checking of leads that
resulted in interviews. Our review found no cases where the FBI improperly
continued investigative activity after determining that the threat of violent,
criminal activity was absent or unsubstantiated.

       In addition to investigative activity directed to the 17 threats described
above, our review of the FBI’s preparations for the Democratic and Republican
national political conventions identified 7 terrorism enterprise investigations
(TEIs) not initiated in connection with the conventions that generated
convention-related criminal intelligence. The investigative techniques utilized
to obtain this intelligence appeared to be a logical outgrowth of the underlying
investigation. We also found no indication that the intelligence was collected in
a manner inconsistent with applicable DOJ guidelines and policies.

       We were also informed by the FBI that it did not rely upon its
counterterrorism authorities in Part VI.A.2 of the General Crimes Guidelines to
visit public places and attend public events at the conventions for the purpose
of detecting or preventing terrorist activities. Officials in the FBI’s New York
and Boston field offices told us that monitoring of crowd movements and
demonstration activities at the conventions was managed by local law
enforcement.




                                        35
                                        35
       In sum, our review did not substantiate the allegations that the FBI
improperly targeted protesters for interviews in an effort to chill the exercise of
their First Amendment rights at the 2004 Democratic and Republican national
political conventions. We concluded that the FBI’s interviews of potential
convention protesters and its related investigative activities were initiated and
conducted for legitimate law enforcement purposes and did not violate
applicable Attorney General Guidelines.




                                        36
                                        36
